NATIONAL CREDIT UNION ADMINISTRATION

    OFFICE OF INSPECTOR GENERAL



        SEMIANNUAL REPORT
                TO
           THE CONGRESS

          April 1 – September 30, 2013
                                                         TABLE OF CONTENTS

INSPECTOR GENERAL'S MESSAGE ................................................................................................................. i

THE NCUA AND OFFICE OF INSPECTOR GENERAL MISSIONS ........................................................... 1

INTRODUCTION..................................................................................................................................................... 2

NCUA HIGHLIGHTS .............................................................................................................................................. 5

FEDERALLY INSURED CREDIT UNION HIGHLIGHTS .......................................................................... 10

LEGISLATIVE HIGHLIGHTS ............................................................................................................................ 11

OFFICE OF THE INSPECTOR GENERAL ..................................................................................................... 13

AUDIT ACTIVITY ................................................................................................................................................ 14

LEGISLATIVE AND REGULATORY REVIEWS .......................................................................................... 25

TABLE I: INSPECTOR GENERAL ISSUED REPORTS WITH QUESTIONED COSTS ..................... 27

TABLE II: INSPECTOR GENERAL ISSUED REPORTS WITH RECOMMENDATIONS THAT
FUNDS BE PUT TO BETTER USE .................................................................................................................. 28

TABLE III: SUMMARY OF OIG ACTIVITY APRIL 1 THROUGH SEPTEMBER 30, 2013 ............. 29

INDEX OF REPORTING REQUIREMENTS.................................................................................................. 30

APPENDIX A: SYSTEM REVIEW REPORT (PEER REVIEW OF NCUA OIG) ................................... 31
Semiannual Report to the Congress                                  April 1 – September 30, 2013




                          INSPECTOR GENERAL'S MESSAGE
                      TO THE NCUA BOARD AND THE CONGRESS

On behalf of the Office of Inspector General (OIG) of the National Credit Union Administration
(NCUA), I am pleased to present our Semiannual Report to the NCUA Board and the Congress
highlighting our accomplishments and ongoing work for the six-month period ending September
30, 2013.

It was an honor to be appointed Inspector General of the NCUA on June 2, 2013. I would like to
thank my predecessor, William DeSarno, for his dedication and 45 years of government service.

The NCUA OIG strives to carry out its mission to promote efficiency and effectiveness in
NCUA programs and operations. This reporting period is no exception. In the past six months,
the OIG has been active on both the audit and investigative sides of the office.

On the audit side, while conducting and reporting on Material Loss Review (MLRs) remained a
major focus, we also completed a review of NCUA’s conference-related activities and expenses.
As an independent agency, NCUA is not legally required to comply with Executive Order 13589,
Promoting Efficient Spending. However, we found that NCUA strived to comply with the intent
of the Executive Order. Nevertheless, while we found that NCUA generally implemented
conference policy and procedures that conformed to the intent of the Executive Order, we
determined that NCUA could improve agency transparency by publicly reporting costs.
Management agreed with our four recommendations and has taken or planned corrective action
to address each one. The Office of Audit also issued a report on the security of NCUA’s Data
Center. That review focused on whether the agency has adequate controls in place to protect
computer systems and data in two key data room locations. Management agreed with our
findings and recommendations, and has already or is in the process of taking corrective action.

On the investigative side, during the reporting period the NCUA implemented a new,
supplemental ethics regulation addressing restrictions on employee outside employment. The
agency’s decision to implement the supplemental regulation stemmed from an OIG investigation
involving an employee filing false claims regarding hours worked and leave taken in order to
engage in outside employment. We believe the supplemental regulation will obviate similar
fraud in the future.

I am a member of the Council of Inspectors General on Financial Oversight (CIGFO), which
comprises the Inspectors General of several financial regulatory agencies and facilitates the

                                                i
Semiannual Report to the Congress                                  April 1 – September 30, 2013


sharing of information, with a focus on concerns that may apply to the broader financial sector
and ways to improve financial oversight. The CIGFO generally meets quarterly. During the
reporting period, the CIGFO members met to discuss current common concerns and to plan our
next oversight review.

Finally, I would like to welcome new Board Member Metsger who started at NCUA in August.
I would also like to thank Chairman Matz and Board Member Fryzel for their sustained support
of the OIG’s work. Our office is committed to assisting the NCUA in ensuring the safety and
soundness of credit unions as we work with the agency to achieve improvements to NCUA’s
programs and activities. Moreover, I would like to thank all the OIG staff for their continued
hard work and dedication. I look forward to all that we will accomplish in the coming months.




                                     James W. Hagen
                                     Inspector General




                                               ii
Semiannual Report to the Congress                          April 1 – September 30, 2013




                                    THE NCUA MISSION

NCUA’s charge is to provide, through regulation and supervision, a safe and sound
credit union system which promotes confidence in the national system of cooperative
credit.




                   THE OFFICE OF INSPECTOR GENERAL MISSION

The OIG promotes the economy, efficiency, and effectiveness of NCUA programs and
operations, and detects and deters fraud, waste, and abuse, thereby supporting the
NCUA’s mission of monitoring and promoting safe and sound federally insured credit
unions.

We accomplish our mission by conducting independent audits, investigations, and other
activities, and by keeping the NCUA Board and the Congress fully and currently
informed of our work.




                                           1
   Semiannual Report to the Congress                                      April 1 – September 30, 2013



                                              INTRODUCTION

The NCUA was established as an independent, federal regulatory agency on March 10, 1970.
The agency is responsible for chartering, examining, supervising, and insuring federal credit
unions. It also insures state-chartered credit unions that have applied for insurance and have
met National Credit Union Share Insurance requirements. The NCUA is funded by the credit
unions it supervises and insures. As of June 30, 2013, the NCUA was supervising and
insuring 4,189 federal credit unions and insuring 2,492 state-chartered credit unions, a total of
6,681 institutions. This represents a decline of 83 federal and 55 state-chartered institutions
since December 31, 2012, for a total decline of 138 credit unions nationwide, primarily as a
result of mergers and liquidations.



                                        Federally Insured Credit Unions


                8000

                7000

                6000     2840          2750
                                                2647
                                                           2547    2492
                5000

                4000                                                                           FISCUs
                                                                                               FCUs
                3000
                         4714          4589     4447
                2000                                       4272    4189


                1000

                   0
                         2009          2010     2011       2012    2013




The NCUA operates under the direction of a Board composed of three members. Board
members are appointed by the President and confirmed by the Senate. They serve six-year
terms. Terms are staggered, so that one term expires every two years. The Board is
responsible for the management of the NCUA, including the NCUA Operating Fund, the Share
Insurance Fund, the Central Liquidity Facility, the Community Development Revolving Loan
Fund, and the Temporary Corporate Credit Union Stabilization Fund.




                                                       2
   Semiannual Report to the Congress                            April 1 – September 30, 2013


The NCUA executes its program through its central office in Alexandria, Virginia and regional
offices in Albany, New York; Alexandria, Virginia; Atlanta, Georgia; Austin, Texas; and Tempe,
Arizona. The NCUA also operates the Asset Management and Assistance Center (AMAC) in
Austin, Texas. Please refer to the NCUA organizational chart below.




                                              3
Semiannual Report to the Congress                                              April 1 – September 30, 2013


The NCUA Board adopted its 2013 budget of $251,387,091 on November 15, 2012.
The Full-Time Equivalent (FTE) staffing authorization for 2013 is 1,261.50 representing
no increase in FTEs from 2012.


                                                NCUA Budget Dollars
                                300

                                250

                                200
              Millions




                                150

                                100

                                50

                                 0
                                         2009    2010         2011      2012           2013




                                                NCUA Authorized Staff
                                1400

                                1200

                                1000
              Employees (FTE)




                                800

                                600

                                400

                                200

                                     0
                                         2009     2010        2011      2012            2013




                                                          4
Semiannual Report to the Congress                              April 1 – September 30, 2013




                                    NCUA HIGHLIGHTS

NCUA Board Swears in Richard T. “Rick” Metsger as New Board Member
On August 23, 2013, in a private ceremony on Capitol Hill, the NCUA Board swore in
the Honorable Richard T. “Rick” Metsger as a new NCUA Board Member. NCUA
General Counsel Michael McKenna delivered the oath of office. President Barack
Obama nominated Mr. Metsger to the NCUA Board on May 16, 2013. The Senate
Banking Committee held Mr. Metsger’s confirmation hearing on June 27, 2013, and the
U.S. Senate confirmed his nomination on August 1, 2013. Board Member Metsger’s
term expires on August 2, 2017.

Prior to joining the NCUA Board, Mr. Metsger was president of a strategic
communications consulting firm. He served in the Oregon State Senate from 1999 to
2011, and his committee assignments included extensive work in the areas of financial
services, transportation, and economic development. He was elected Senate President
Pro Tempore in 2009. Board Member Metsger also served on the board of the Portland
Teachers Credit Union and on the Oregon State Treasury Debt Policy Advisory
Commission. Before entering public service, Mr. Metsger worked as a radio and
television journalist.

Board Member Metsger replaced former Board Member Gigi Hyland, who left the
agency in October 2012, on the three-person NCUA Board.

NCUA Files Suit Alleging LIBOR Manipulation
On September 23, 2013, the NCUA filed suit in Federal District Court in Kansas against
13 international banks, including J.P. Morgan Chase, alleging violations of federal and
state anti-trust laws by manipulation of interest rates through the London Interbank
Offered Rate (LIBOR) system.

The manipulation of LIBOR, the benchmark for setting interest rates around the globe,
resulted in a loss of income from investments and other assets held by five failed
corporate credit unions: U.S. Central, WesCorp, Members United, Southwest and
Constitution.

The NCUA claims the defendants in the action individually and collectively gave false
interest-rate information through the LIBOR rate-setting process “to benefit their
investments that were tied to LIBOR, to reduce their borrowing costs, to deceive the
marketplace as to the true state of their creditworthiness, and to deprive investors of the
interest rate payments to which they were entitled.” The false information created the
impression the defendant banks were borrowing money at a lower interest rate than
they were actually paying.

More than 40 suits have been filed in relation to the LIBOR manipulation. NCUA is one
of the first federal financial regulators to sue in this area.

                                             5
Semiannual Report to the Congress                                April 1 – September 30, 2013


LIBOR is the average daily interest rate a group of leading financial institutions pay
when they borrow from one another. The rate is set daily for 10 currencies around the
world and affects interest rates on trillions of dollars of financial transactions of various
kinds.

In addition to the lawsuits, banks involved in the LIBOR manipulation have been under
investigation by authorities in the United States and the United Kingdom. The
investigating authorities have so far collected approximately $2.5 billion in penalties
from three firms, UBS, the Royal Bank of Scotland, and Barclays.

Recoveries from NCUA’s legal actions will further reduce the total losses resulting from
the failure of the corporate credit unions. Losses from those failures must be paid from
the Temporary Corporate Credit Union Stabilization Fund. All federally insured credit
unions repay expenditures from the Stabilization Fund through assessments, so any
recoveries would help reduce future assessments on credit unions.

Corporate credit unions are wholesale credit unions that provide various services to
retail credit unions, which in turn serve consumers, or “natural person” credit unions.

Retail credit unions rely on corporate credit unions to provide them such services as
check clearing, electronic payments, and investments.

The complaint is available on NCUA’s website here.

NCUA and VA Team Up to Increase Employment Opportunities for Veterans
On September 11, 2013, the NCUA and the Department of Veteran Affairs joined forces
to create more employment opportunities for veterans and to promote greater workforce
diversity in the agency through the Feds for Vets program. The two federal agencies
signed a memorandum of understanding to begin to launch the cooperative effort.
NCUA is the first financial services regulatory agency to partner with the VA in the
program, which is part of the Obama Administration’s national strategy aimed at
increasing the number of veterans in the federal workforce.

The Feds for Vets program is focused on increasing the number of veterans in the
federal workforce. As part of the effort, VA’s Veteran Employment Services Office
provides a comprehensive, high-tech, high-touch solution, VA for Vets. VESO hosts a
VA for Vets website, a comprehensive source of information for service members and
hiring managers to help match candidates’ skills with federal jobs and provides access
to career coaches located in call centers. The VA also assists other federal agencies
and non-profit organizations in their efforts to hire veterans with targeted recruitment,
training, marketing, and outreach services.

Since November 2009, NCUA has hired 128 veterans, 22 percent of agency hires for
that time period. NCUA Chairman Debbie Matz has stated that “[o]ne of my highest
priorities as Chairman is to make NCUA an ‘employer-of-choice’ for talented candidates,
and I want to make sure veterans know about the opportunities we offer and the
satisfaction that comes from working here and making a difference.”
                                              6
Semiannual Report to the Congress                              April 1 – September 30, 2013


NCUA Files 11th Legal Action against Wall Street Investment Firms
The NCUA filed suit in Federal District Court in Kansas, on August 30, 2013, against
Morgan Stanley & Co., Inc. and other firms, alleging violations of federal and state
securities laws in the sale of more than $566 million in mortgage-backed securities to
the U.S. Central and WesCorp corporate credit unions.

NCUA’s suit alleges the firms made misrepresentations in connection with the
underwriting and subsequent sale of mortgage-backed securities to U.S. Central and
WesCorp. Both corporate credit unions became insolvent and were subsequently
placed into NCUA conservatorship and liquidated as a result of losses from these faulty
securities. These failures subsequently caused significant losses to the credit union
system.

The complaint alleges the offering documents of the securities sold to the failed
corporate credit unions contained statements of material fact that were not true or
omitted material facts. The originators systematically abandoned the stated
underwriting guidelines in the offering documents, according to the complaint, and the
securities were significantly riskier than represented. The result, the complaint stated,
was that the securities were destined from inception to perform poorly.

NCUA has similar actions pending against Barclays Capital, Credit Suisse, Goldman
Sachs, J.P. Morgan Securities, RBS Securities, UBS Securities, Wachovia, Bear
Stearns, and Washington Mutual Bank.

NCUA was the first federal regulatory agency for depository institutions to recover
losses from investments in faulty securities on behalf of failed financial institutions. To
date, the agency has settled claims worth more than $335 million with Citigroup,
Deutsche Bank Securities, HSBC, and Bank of America. As liquidating agent for the
three corporate credit unions, NCUA has a statutory duty to seek recoveries from
responsible parties in order to minimize the cost of any failure to its insurance funds and
the credit union industry.

Recoveries from these legal actions will further reduce the total losses resulting from the
failure of the three corporate credit unions. Losses from those failures must be paid
from the Temporary Corporate Credit Union Stabilization Fund. Expenditures from this
fund must be repaid through assessments against all federally insured credit unions, so
any recoveries would help reduce future assessments on credit unions.

The complaint is available on NCUA’s website here




                                             7
Semiannual Report to the Congress                               April 1 – September 30, 2013


NCUA Plans Regional Realignment in 2014
The NCUA announced, on July 18, 2013, a realignment of the agency’s regional
supervision of federally insured credit unions in nine states, effective Jan. 1, 2014. The
adjustment results from NCUA’s ongoing efforts to operate as efficiently as possible.

Effective January 1, 2014, the following nine states will shift regions as follows:

From             To                 States
Region V         Region IV          Colorado, Montana, New Mexico,
                                    Wyoming
Region IV        Region III         Louisiana, Arkansas
Region IV        Region I           Wisconsin
Region III       Region II          Ohio
Region II        Region V           California

A map of the NCUA’s new regional structure is available here

The implementation of the new regional structure coincides with other changes to
strengthen supervision. At the start of 2013, NCUA reorganized existing resources to
create an Office of National Examinations and Supervision (ONES). The office will begin
supervising the nation’s largest consumer credit unions, those with more than $10 billion
in assets, at the start of 2014.

The realignment is the product of several months’ work to balance the workload and
staffing, and respond to changes in the industry resulting from industry mergers.

Each NCUA region will now have between 114 and 128 examiners, in addition to
supervision, special actions, and support personnel. NCUA expects the shift to be
completed with a minimal disruption to staff and to credit unions, and no staff
relocations will be necessary.

FSOC Recommendations Have Direct Bearing on Credit Unions
The Financial Stability Oversight Council (FSOC) released its Annual Report in April
2013. Each year as part of the Annual Report process, the FSOC members, including
NCUA Chairman Matz, sign the report and attest to the member statement. That
statement makes it clear the recommendations are actions the Council believes need to
be taken to ensure financial stability and to mitigate systemic risk. A number of the risks
identified and recommendations in the 2013 FSOC Report are consistent with NCUA’s
regulatory and supervisory priorities. Three recommendations in particular have direct
bearing on credit unions:

    •   The first is risks arising from a prolonged period of low interest rates, including
        duration extension and the possibility of credit risk-taking. Over the last several
        years, many credit unions have increased exposure to fixed-rate real estate and

                                                 8
Semiannual Report to the Congress                               April 1 – September 30, 2013


        longer-term investments. The Council recommends that regulatory agencies
        continue their scrutiny of how potential changes in interest rates could adversely
        affect risk profiles. NCUA has stated that this is a priority.

    •   Second, the report emphasizes that capital and liquidity buffers “form the most
        fundamental protection for the broader financial system.” This is equally true in
        the credit union sector. NCUA continues to evaluate capital and liquidity
        standards to make sure they are appropriate for a growing and evolving credit
        union industry.

    •   Finally, operational risks, including cyber-security risks, are an emerging and
        rapidly changing threat. Credit unions are not immune to this threat.
        Consequently, this will be an area of continued emphasis and guidance for the
        agency.

Chairman Matz is one of 10 voting members of the Council.

NCUA Earns ENERGY STAR Certification
During the reporting period the NCUA received the ENERGY STAR certification for its
Alexandria, Virginia central office. NCUA received an overall rating of 86 on a scale of
100, exceeding government standards. The General Services Administration (GSA)
requires federal agencies leasing space outside a GSA-owned property to be in a
building with an ENERGY STAR Performance Rating of at least 75. NCUA met all four
necessary standards for certification in energy performance, thermal comfort, indoor air
quality, and illumination levels.

Under Chairman Matz’s leadership, the greeNCUA initiative has promoted greater
energy efficiency, waste reduction and other efforts to reduce NCUA’s environmental
footprint. Recent renovations to NCUA’s central office, including lighting system
upgrades, helped the agency obtain the certification. In the last year, NCUA reduced its
electricity bills by about $7,000.

ENERGY STAR is a U.S. Environmental Protection Agency voluntary program that
helps businesses and individuals save money and protect the environment through
improved energy efficiency.

The ENERGY STAR certification is subject to annual renewal, and NCUA’s facilities
staff is already at work to keep the agency’s rating for next year.




                                             9
   Semiannual Report to the Congress                              April 1 – September 30, 2013



              FEDERALLY INSURED CREDIT UNION HIGHLIGHTS

Credit unions submit quarterly call reports (financial and operational data) to the NCUA. An
NCUA staff assessment of the June 30, 2013, quarterly call reports submitted by all federally
insured credit unions found that key financial indicators are positive.

Key Financial Indicators Favorable
Looking at the June 30, 2013 quarterly statistics for major balance sheet items and key ratios
shows the following for the nation’s 6,681 federally insured credit unions: assets grew 6.70
percent; net worth to assets ratio increased from 10.43 to 10.50 percent; the loan to share ratio
decreased from 68.06 percent to 67.48 percent. However, the delinquency ratio decreased
from 1.16 to 1.04 percent; and credit union return on average assets remained at .85 percent.

Savings Shifting to Regular Shares
Total share accounts increased 7.19 percent. Regular shares increased 15.16 percent.
Regular shares comprise 32.54 percent of total share accounts; share certificates comprise
21.36 percent; money market shares comprise 22.98 percent; share draft accounts comprise
13.10 percent; and all other share accounts comprise 10.01 percent.

Loan Volume Flat
Loans increased 5.40 percent resulting in an increase in total loans by $16.14 billion. Total net
loans of $614 billion comprise 57.38 percent of credit union assets. First mortgage real estate
loans are the largest single asset category with $254 billion accounting for 41.36 percent of all
loans. Other real estate loans of $71 billion account for 11.59 percent of all loans. Used car
loans of $121 billion were 19.76 percent of all loans, while new car loans amounted to $66
billion or 10.82 percent of total loans. Credit card loans totaled $40 billion or 6.45 percent of
total loans and other loans totaled $61 billion for 10.01 percent of total loans.




                                               10
   Semiannual Report to the Congress                              April 1 – September 30, 2013




                                  LEGISLATIVE HIGHLIGHTS

House Financial Services Committee Introduces PATH Act
On July 24, 2013, the House Financial Services Committee, voting 30-27, reported out H.R.
2767, the “Protecting American Taxpayers and Homeowners (PATH) Act” to create a
sustainable housing finance system. H.R. 2767 was introduced by Rep. Scott Garret, R-N.J.,
with committee Chairman Jeb Hensarling, R-Texas, and Reps. Randy Neugebauer, R-Texas,
Patrick McHenry, R-N.C., and Shelley Moore Capito, R-W.Va.

According to the committee’s Executive Summary, the reforms contained within the PATH Act
are focused on:

   •   Ending the costly Fannie and Freddie bailout;
   •   Right-sizing the FHA and clearly defining its mission;
   •   Implementing market reforms to increase mortgage competition, enhance
       transparency, and maximize consumer choice; and
   •   Breaking down barriers for private investment capital.

The drafted bill also includes a provision sought by credit unions to address shortcomings of
mortgage-related rules issued by the Consumer Financial Protection Bureau (CFPB),
including changes to the definition of ‘points on fees’ under the ability-to-pay rule.

House Financial Services Vice Chairman Introduces Credit Union Regulatory Relief Bill
On June 28, 2013, House Financial Services Committee Vice Chairman Gary Miller, R-Calif.,
introduced the “Regulatory Relief for Credit Unions Act of 2013.” The bill would establish a
risk-based capital system for credit unions and require the NCUA and the CFPB to modify
rules if compliance costs are found to be significantly higher than initially estimated.

The centerpiece of the legislation is a risk-based capital proposal that revives concepts
supported by the credit union industry in previous legislative efforts such as the Credit Union
Regulatory Improvements Act. The provisions in the Miller bill would:

   •   Allow NCUA to grant federal credit unions a waiver to follow a state rule instead of a
       federal one in certain situations;
   •   Authorize NCUA to step in where appropriate to modify a CFBP rule affecting credit
       unions;
   •   Establish a risk-based capital system for credit unions;
   •   Require that NCUA and CFPB revisit cost/benefit analyses of rules after three years so
       they have a true sense of the compliance costs for credit unions;
   •   Require NCUA to conduct a study of the Central Liquidity Facility and make legislative
       recommendations for its modernization;
   •   Give credit unions better control over their investment decisions and portfolio risk; and


                                               11
   Semiannual Report to the Congress                                April 1 – September 30, 2013


   •   Provide credit unions parity with FDIC-insured institutions when it comes to deposit
       insurance coverage on Interest on Lawyers Trust Accounts (IOLTAs).

NCUA Ramps Up Fair Lending Enforcement
The NCUA placed more emphasis on Fair Lending laws and Home Mortgage Disclosure Act
data collection in 2013, and credit unions can expect additional rules and examinations in
2014, according to NCUA Letter to Credit Unions 13-FCU-02. The LCU can be found on
NCUA’s website here.

NCUA supervises and enforces fair lending laws and regulations at federal credit unions, and
helps educate federally insured credit unions on their fair lending and consumer protection
obligations. Fair lending laws and regulations include:
   •   Equal Credit Opportunity Act (Regulation B);
   •   Home Mortgage Disclosure Act (Regulation C); and
   •   Fair Housing Act (FHA).

Although NCUA did not issue these regulations, the laws require NCUA to enforce these
regulations in the process of supervising federal credit unions.

NCUA created a new Fair Lending Guide, which credit unions can download to assist them in
developing or evaluating their fair lending compliance program. The guide includes:
   •   An overview of fair lending law and regulations;
   •   Credit union operational requirements;
   •   Issues to consider when developing fair lending compliance policies; and
   •   Checklists for testing compliance with laws and regulations, or developing a fair lending
       policy for compliance.

NCUA uses multiple factors to determine whether a credit union demonstrates the potential
for higher fair lending risk which could lead to a fair lending exam or an off-site supervision
contact. Some of those factors include:
   •   HMDA outliers;
   •   Fair lending violations;
   •   General compliance risks; and
   •   Other factors, including the potential for higher fair lending risk because of the volume,
       type(s), or complexity of the products and services offered, types of communities
       served, and whether the credit union has been the subject of lending discrimination
       complaints.

Federal credit unions that demonstrate the potential for higher fair lending risk—but are not
HMDA outliers—are subject to an off-site fair lending supervision contact. If an off-site
supervision contact indicates the possibility of discriminatory practices or significant findings
of non-compliance with fair lending laws or regulations, a federal credit union will be
considered for a fair lending exam during the next exam cycle.

                                                12
   Semiannual Report to the Congress                                  April 1 – September 30, 2013



                         OFFICE OF THE INSPECTOR GENERAL
The Office of the Inspector General was established at the NCUA in 1989 under the authority of the
Inspector General Act of 1978, as amended. The staff consists of the Inspector General, Deputy
Inspector General, Counsel to the Inspector General/Assistant Inspector General for Investigations,
Director of Investigations, three Senior Auditors, Senior Information Technology Auditor, and Office
Manager.

The Inspector General reports to, and is under the general supervision of, the NCUA Board. The
Inspector General is responsible for:

       1. Conducting, supervising, and coordinating audits and investigations of all NCUA programs
          and operations;

       2. Reviewing policies and procedures to ensure efficient and economic operations as well as
          preventing and detecting fraud, waste, and abuse;

       3. Reviewing existing and proposed legislation and regulations to evaluate their impact on the
          economic and efficient administration of agency programs; and

       4. Keeping the NCUA Board and the Congress apprised of significant findings and
          recommendations.




                                                  13
   Semiannual Report to the Congress                            April 1 – September 30, 2013




                                       AUDIT ACTIVITY

AUDIT REPORTS ISSUED
OIG-13-07 – May 29, 2013
NCUA’s Conference-Related Activities and Expenses
The National Credit Union Administration (NCUA) Office of Inspector General (OIG)
conducted a self-initiated audit of NCUA’s conference-related activities and expenses. On
November 9, 2011, the President of the United States issued Executive Order 13589 (the
Order), Promoting Efficient Spending, and tasked the Office of Management and Budget
(OMB) with agency oversight. As an independent agency, NCUA is not required to follow
the Order; however, NCUA indicated it would strive to comply with the intent of the Order.
Accordingly, our objective for this review was to determine whether NCUA’s conference-
related activities and expenses complied with the spirit of the OMB guidance.

We determined NCUA has generally implemented conference policy and procedures that
conform to the intent of the Order and the spirit of OMB guidance. We also determined
NCUA’s conference policy and guidelines generally meet and in some instances exceed
federal policies and guidelines in regards to conference spending and cost controls.
Furthermore, we determined NCUA could improve agency transparency by publically
reporting costs for all conferences exceeding $100,000.

This report made four recommendations and one suggestion, which the OIG believes can
help NCUA fully comply with the intent of the Order and the spirit of OMB guidance. NCUA
management agreed with our recommendations and suggestion and we believe
management’s planned actions will address the issues identified in this report.

OIG-13-08 – August 12, 2013
Security of the NCUA Data Center
The NCUA OIG conducted an audit of the security of NCUA’s computer data centers to
determine whether NCUA has adequate controls in place to protect computer systems and
data in its data centers.

We determined that overall the NCUA has controls in place to protect the computer
systems and data hosted in these centers. However, we determined that NCUA could
make improvements to more adequately control or monitor access to the data centers.

We made four recommendations where NCUA could make improvements to better protect
access to its mission critical applications and data. NCUA agreed with all of our
recommendations.




                                              14
   Semiannual Report to the Congress                               April 1 – September 30, 2013


OIG-13-09 – August 26, 2013
Material Loss Review of El Paso’s Federal Credit Union
The NCUA OIG contracted with Moss Adams LLP to conduct a Material Loss Review
(MLR) of El Paso’s Federal Credit Union (EPFCU). The objectives of the MLR were to:
(1) determine the cause of the credit union’s failure and resulting loss to the National Credit
Union Share Insurance Fund; (2) assess NCUA’s supervision of the credit union; and
(3) provide appropriate suggestions and/or recommendations to prevent future losses.

We determined management’s fraudulent actions caused EPFCU to fail. Specifically, our
review identified issues such as management integrity, operational irregularities, internal
control and record keeping deficiencies, and Board oversight and governance issues. In
addition, we determined NCUA could have mitigated the loss to the National Credit Union
Share Insurance Fund (NCUSIF) had examiners identified several warning signs that we
believe should have triggered further examination procedures designed to identify
suspicious activity.

The report made four observations and three recommendations to help the risk-focused
examination process. NCUA management agreed with each of our recommendations.

AUDITS IN PROGRESS

Independent Evaluation of the NCUA’s Compliance with the Federal Information Security
Management Act (FISMA) 2013
The OIG engaged Mitchell & Titus, LLP to independently evaluate its information systems
and security program and controls for compliance with the Federal Information Security
Management Act (FISMA), Title III of the E-Government Act of 2002.

Mitchell & Titus is evaluating NCUA’s security program through interviews, documentation
reviews, technical configuration reviews, social engineering testing, and sample testing.
NCUA is being evaluated against standards and requirements for federal government
agencies such as those provided through FISMA, National Institute of Standards and
Technology (NIST) Special Publications (SPs), and OMB memoranda. We anticipate
issuing the final report in November 2013.

NCUA Financial Statements 2013
Our current contracting audit firm, KPMG, is working on the 2013 financial statements of the
NCUA Operating Fund, National Credit Union Share Insurance Fund, the Central Liquidity
Facility, the Community Development Revolving Loan Fund and the Temporary Corporate
Credit Union Stabilization Fund (TCCUSF).

The NCUA Operating Fund was established as a revolving fund managed by the NCUA Board
for the purpose of providing administration and service to the federal credit union system. The
National Credit Union Share Insurance Fund was established as a revolving fund managed by
the NCUA Board to insure member share deposits in all Federal credit unions and qualifying

                                                15
   Semiannual Report to the Congress                             April 1 – September 30, 2013


state credit unions. The CLF was established as a mixed ownership government corporation
managed by the NCUA Board to improve general financial stability by meeting the liquidity
needs of credit unions. The purpose of the Community Development Revolving Loan is to
stimulate economic activities in the communities served by low-income credit unions. This in
turn will result in increased income, ownership and employment opportunities for low-wealth
residents and other economic growth. The TCCUSF, established in 2009, allows NCUA to
borrow money from the Treasury to pay for corporate credit union losses, and then pay back
the Treasury over time with funds obtained from assessments on federally insured credit
unions. We expect to issue our report in February 2014.

Material Loss Reviews
The Federal Credit Union Act requires the NCUA OIG to conduct a Material Loss Review
(MLR) of an insured credit union if the loss exceeds $25 million. We are conducting MLRs on
Chetco Federal Credit Union and Taupa Lithuanian Credit Union, which met this threshold. In
addition, the Dodd-Frank Wall Street Reform and Consumer Protection Act requires the OIG to
assess all losses to the NCUSIF under the $25 million threshold and determine if unusual
circumstances warrant conducting an MLR. We determined that G.I.C. Federal Credit Union
met this criterion and elected to conduct an MLR.

For each of these MLRs, we will review to (1) determine the cause(s) of the credit union’s
failure and the resulting loss to the NCUSIF; and (2) assess NCUA’s supervision of the credit
union. To achieve these objectives, we will analyze NCUA examination and supervision
reports and related correspondence; interview management and staff from NCUA Regional
offices; and review NCUA guidance, policies and procedures, NCUA Call Reports, and
Financial Performance Reports.

Review of NCUA’S Process for Documenting SIF Losses and Credit Union Failures
This discretionary review from the NCUA OIG’s 2013 Annual Audit Plan is to determine
NCUA’s methodology for identifying and tracking credit union failures and losses to the
NCUSIF. Specifically, we are determining how NCUA establishes its initial SIF loss estimate
amount, how changes are made to this amount, and by which office. To accomplish our
objective, we are performing statistical analysis of NCUA’s ability to document credit union
failures and related estimated SIF losses at different points in time. We are reviewing and
analyzing specific credit union failures and their related estimated SIF loss data. We are also
reviewing information obtained from the offices involved in either developing, documenting, or
using estimated SIF loss amounts and credit union failure data, which includes NCUA’s five
regional offices, the Asset Management and Assistance Center, the Office of Examination and
Insurance, the Office of Consumer Protection, and the Office of the Chief Financial Officer.
We are also reviewing related NCUA policies and procedures and conducting interviews with
Central Office and regional staff, as appropriate.




                                              16
   Semiannual Report to the Congress                           April 1 – September 30, 2013


NCUA’s Credit Union Success Stories
The OIG is conducting a review of NCUA credit union success stories to help NCUA in its
supervisory oversight of the credit union industry moving forward. Specifically, we are
identifying lessons learned from past NCUA successful cases where specific corrective actions
helped revive failing credit unions. This is a discretionary audit from the NCUA OIG’s 2013
Annual Audit Plan.

Significant Audit Recommendations on Which Corrective Action Has Not Been
Completed
As of September 30, 2013, below is a list of OIG reports with unimplemented
recommendations where management has agreed to implement corrective action but has yet
not completed those actions. This information is based on (1) information supplied by NCUA
Office of Examination and Insurance and (2) the OIG’s report recommendation tracking
system.

Report Number, Title and Date

OIG-10-20 OIG Capping Report on Material Loss Reviews, November 23, 2010

Significant Recommendations Open and Brief Summary

On November 23, 2010, the OIG issued report #OIG-10-20 titled OIG Capping Report on
Material Loss Reviews. There is 1 open recommendation related to the regulatory guidance to
establish limits or other controls for concentrations that pose an unacceptable safety and
soundness risk and determine an appropriate range of examiner response to high-risk
concentrations.




                                             17
Semiannual Report to the Congress                            April 1 – September 30, 2013


Report on Credit Union Losses under Materiality Level of $25 Million
The “Dodd-Frank Wall Street Reform and Consumer Protection Act” requires the NCUA
OIG to perform a limited review where the NCUSIF incurred a loss below the $25 million
threshold with respect to an insured credit union. The OIG must report to the NCUA
Board and the Congress every 6 months on the results of the limited reviews and the
timeframe for performing any subsequent in-depth reviews we determine are necessary.

This report on losses below the $25 million threshold covers the six-month period from
April 1, 2013, to September 30, 2013. For all losses to the SIF under the MLR
threshold, we determined (1) why NCUA initiated assistance; and (2) whether any
unusual circumstances existed that might warrant an in-depth review of the loss.

For each limited review, we performed procedures that included, but were not limited to:
1) obtaining and analyzing the regulator’s supervisory memoranda and other pertinent
documents; 2) preparing a schedule of CAMEL ratings assigned to the institution
through full scope or other examinations during the five years preceding the failure;
3) conducting interviews as needed; 4) inquiring about any investigative actions that
were taken, planned, or considered involving credit union officials or others; and 5)
analyzing supervisory history and other review methods.

We conducted limited reviews of eight failed credit unions that incurred losses to the
NCUSIF under $25 million between April 1, 2013, and September 30, 2013. Based on
those limited reviews, we determined that none of the losses warranted conducting
additional work because no unusual circumstances presented themselves in our review;
or we had already addressed the reasons identified for failure in recommendations to
the agency in previous MLR reports.

The chart below provides details on the eight credit union losses to the NCUSIF below
the $25 million threshold. It provides details on the credit union, such as the date of
failure, the estimated loss to the NCUSIF, and grounds for conservatorship, merger, or
other factors. The chart also provides our decision whether to terminate or proceed with
a full-scope MLR of the credit union.




                                          18
  Semiannual Report to the Congress                                        April 1 – September 30, 2013



                     Decisions Regarding Losses less than $25 million
                                             Date of        Est. Loss to          Grounds for the NCUA
Decision*     Credit Union      Region
                                             Failure          NCUSIF                  Appointment
               Shiloh of                                                   Insolvent due to suspected fraud,
              Alexandria                                                   which included fictitious nonmember
Terminate                             II    4/12/2013       $5,143,034
             Federal Credit                                                deposits, manipulated financial
                Union                                                      records, and missing cash.
                                                                           Insolvent due to fraud, which
               Lynrocten                                                   included a suspected check kiting
Terminate    Federal Credit           II    5/3/2013        $8,477,196     scheme, fictitious and unauthorized
                 Union                                                     share-secured loans, and missing
                                                                           cash.
               Electrical                                                  Insolvent due to fraud, which
             Workers Union                                                 included the charge-off of fictitious
Terminate                             IV    5/23/2013        $842,000
             #527 Federal                                                  loans and understated member
              Credit Union                                                 deposits.
                                                                           Insolvent due to poor contractual
                                                                           decisions made by the former board
                 NCP
                                                                           of directors for core processing and
              Community
                                                                           credit/debit card services, combined
Terminate    Development              II    5/31/2013        $640,000
                                                                           with management’s inability to
             Federal Credit
                                                                           overcome its poor recordkeeping,
                Union
                                                                           resulted in operating expenses that
                                                                           vastly exceeded income.
             Ochsner Clinic                                                Insolvent due to fraud, which
Terminate    Federal Credit           IV    6/28/2013       $3,966,647     included fictitious loans and missing
                Union                                                      cash.
                                                                           Insolvent due to high loan losses
                                                                           and high provision for loan and lease
                                                                           loss expenses related to
              PEF Federal
Terminate                             III   7/1/2013         $892,344      unauthorized and potentially
              Credit Union
                                                                           fraudulent indirect vehicle loans, as
                                                                           well as impermissible member
                                                                           business loans.
                                                                           Insolvent due to continual
                                                                           operational issues brought on by
                                                                           poor management decisions related
             Greater Oregon
                                                                           to loan concentrations, poor credit
Terminate    Federal Credit           V     8/5/2013        $3,990,000
                                                                           administration, inadequate funding of
                 Union
                                                                           the Allowance for Loan and Lease
                                                                           Loss, declining net worth and
                                                                           negative earnings.
                                                                           Insolvent due to management’s poor
                                                                           decisions related to its real estate
                                                                           loan portfolio, which contributed to
               Craftsman                                                   high loan losses and ALLL funding
Terminate                              I    9/6/2013         $149,580
              Credit Union                                                 requirements. Management’s
                                                                           inability to address these issues
                                                                           caused the credit union to become
                                                                           critically undercapitalized.

                                                       19
Semiannual Report to the Congress                                       April 1 – September 30, 2013


**Criteria for each decision included: (1) dollar value and/or percentage of loss; (2) the institution’s
background, such as charter type and history, geographic location, affiliations, business strategy;
(3) uncommon cause of failure based on prior MLR findings; (4) unusual supervisory history, including the
nature and timing of supervisory action taken, noncompliance with statutory examination requirements,
and/or indications of rating disagreements between the state regulator and NCUA; and (5) other, such as
apparent fraud, request by NCUA Board or management, Congressional interest, or IG request.




                                                   20
   Semiannual Report to the Congress                               April 1 – September 30, 2013


PEER REVIEWS

April 1 through September 30, 2013
Government Auditing Standards require audit organizations that perform audits and attestation
engagements of federal government programs and operations undergo an external peer
review every three years. The objectives of an external peer review include a review of an
audit organization’s system of quality control to determine not only the suitability of the design,
but also whether the audit organization is in compliance with its quality control system so as to
provide reasonable assurance the audit organization conforms to applicable professional
standards.

External Peer Review of NCUA OIG Office of Audit
The Peace Corps OIG completed our most recent peer review on February 4, 2013 for the
three-year period ended December 31, 2012. The Peace Corps OIG issued its report entitled
System Review Report and rendered the opinion that the system of quality control for the
NCUA OIG, Office of Audit, was suitably designed and complied with, thus providing
reasonable assurance the system of controls conformed with applicable professional
standards in all material respects. As a result, we received a peer rating of pass. In addition,
we have no outstanding recommendations from this external peer review. A copy of this report
is included herein as Appendix A.

External Peer Review of National Labor Relations Board OIG Office of Audit
The NCUA OIG completed a peer review of the National Labor Relations Board (NLRB) OIG.
On October 31, 2011, we issued an external peer review report for the audit function of the
NLRB OIG for the three year period ended September 30, 2011. The NLRB received a rating
of pass and has no outstanding recommendations related to the peer review report.




                                                21
Semiannual Report to the Congress                            April 1 – September 30, 2013



                               INVESTIGATIVE ACTIVITY

In accordance with professional standards and guidelines established by the United
States Department of Justice, the NCUA OIG Office of Investigations (OI) conducts
investigations of criminal, civil, and administrative wrongdoing involving the agency’s
programs, operations, and personnel. Our investigative program focuses on activities
designed to promote both efficiency and economy within the NCUA and its programs
and operations, and to fight fraud, waste, and abuse. In this regard, we investigate
referrals and allegations of misconduct on the part of NCUA employees, former
employees, and contractors. Investigations may involve possible violations of
regulations involving Federal employee responsibilities and conduct, agency policies,
Federal criminal law, and other statutes and regulations. Finally, we have a robust
training program within the agency that encompasses integrity awareness briefings and
orientation presentations regarding the role of the OIG within the agency and how to
report wrongdoing to the OI.

Additionally, we routinely receive complaints from credit union officials and their
members which involve NCUA employee program responsibilities. We examine these
complaints and determine if there is any indication of misconduct or wrongdoing by an
NCUA employee. If not, we refer the complaint to the NCUA Office of Consumer
Protection (OCP) or appropriate regional office for response, or close the matter if
contact with the OCP or the regional office indicates that the matter has already been
appropriately handled.

The instructional guidance the OI provides to new NCUA employees and newly
appointed supervisors about the respective roles and responsibilities of the OIG and
NCUA employees facilitates more open communication between both. The final
product is a stronger agency.

OIG Hotline Contacts
The OIG has and maintains a 24 hour toll free hotline to enable employees and citizens
to call in and provide information about suspected fraud, waste, and abuse or
mismanagement involving agency programs or operations. Additionally, the OIG
receives complaints from an off-site post office box, electronic mail, and facsimile
messages. The OI has also posted an electronic version of a hotline complaint form,
located on the NCUA intranet. The electronic form offers an additional venue for
confidential employee and contractor communication with the OIG. All information
received from any of these sources is referred to as a hotline contact. The OIG hotline
program is administered to by the OIG Office Manager, under the direction of the
Director of Investigations.

The majority of hotline contacts we receive are from consumers seeking assistance with
problems encountered within their respective credit unions. As discussed above, these
contacts are generally referred to the OCP and regional offices for action.


                                          22
Semiannual Report to the Congress                              April 1 – September 30, 2013




                          Hotline Complaints



                                                    Phone Call/Voicemail
                                                    Email
                                                    Letter/Facsimile




Phone Call / Voicemail              85
Email                               87
Letter / Facsimile                  19
Total:                          191

INVESTIGATIONS

Employee Misconduct / Misuse of Government Travel Card
During the reporting period, the OIG received information regarding an employee’s
delinquent JP Morgan Chase (government-issued credit card) account. In reviewing the
account purchases, the investigative agent noted several unusually excessive charges.
The investigation revealed that the employee had purchased meals for himself and
other agency employees while on work-related travel, a practice prohibited by agency
and GSA travel card policies. Based on the investigative findings, the agency initiated
refresher training regarding proper use of the credit cards. The OI closed this
investigation during the reporting period.

Employee Misconduct / Misuse of Agency Database
During the reporting period, the OIG received allegations that someone had intentionally
changed the settings on an Interactive Referral Service telephone system in OCP,
resulting in the re-routing of incoming calls for several hours. The investigative agent
interviewed several employees and reviewed database logs. The investigation failed to
identify any culpable individual(s). The OI closed this investigation during the reporting
period.


                                           23
Semiannual Report to the Congress                              April 1 – September 30, 2013



Employee Misconduct/ Unauthorized Use of Government Computer
During the reporting period, the OIG received allegations that an employee had used his
agency-issued laptop computer to upload/download pornographic materials from the
internet. An investigative search of the employee’s computer hard drive failed to
retrieve evidence that the employee had accessed pornographic materials. However,
the investigative agent, working with the agency’s Office of the Chief Information Officer,
found evidence that unauthorized software programs had been installed on the
employee’s hard drive. This investigation is ongoing.

PEER REVIEWS

April 1 through September 30, 2013
Section 6(e)(7) of the Inspector General Act of 1978, as amended, requires those OIGs
that have been granted statutory law enforcement authority pursuant to the Act, to
periodically undergo review by another OIG or a committee of OIGs (Peer Review).
The purpose of the peer review is to ascertain whether adequate internal safeguards
and management procedures exist to ensure that the law enforcement powers
conferred by the 2002 amendments to the Act are properly exercised. The NCUA OIG
does not have statutory law enforcement authority. Consequently, our investigative
organization is not required to have a peer review and, to date has neither undergone a
peer review nor conducted a peer review of another OIG. However, the OI is tentatively
scheduled both to receive and conduct, respectively, its first peer review sometime in
2014.




                                            24
   Semiannual Report to the Congress                                      April 1 – September 30, 2013


                         LEGISLATIVE AND REGULATORY REVIEWS

Section 4(a) of the Inspector General Act requires the Inspector General to review existing and
proposed legislation and regulations relating to the programs and operations of the NCUA and
to make recommendations concerning their impact. Moreover, we routinely review agency
program and policy guidance, in order to make recommendations concerning economy and
efficiency in the administration of NCUA programs and operations and the prevention and
detection of fraud, waste and abuse.

During the reporting period, the OIG reviewed 24 items, including proposed legislation,
proposed and final regulations, NCUA Regulatory Alerts, and NCUA Letters to Credit Unions
(LCU). The OIG also responded to three (3) Freedom of Information Act (FOIA) requests.

                       SUMMARY OF STATUTES AND REGULATIONS REVIEWED

        Legislation                                            Title

    H.R. 2767               The “Protecting American Taxpayers and Homeowners (PATH) Act”

    H.R. __                 The “Regulatory Relief for Credit Unions Act of 2013.”
                            “A bill to modify the requirements under the STOCK Act regarding
                            online access to certain financial disclosure statements and related
    P.L. 113-7              forms”

    S. 549                  The “Public Online Information Act of 2013”

    S. 808                  “A bill to establish the Office of the Inspector General of the Senate”
                            The “Bureau of Consumer Financial Protection-Inspector General
    S. 1310/H.R. 2779       Reform Act of 2013”

    H.R. 2061/S. 994        The “Digital Accountability and Transparency Act of 2013”
                            “A bill to create a centralized website on reports issued by the
    H.R. 2221               inspectors general, and for other purposes”

    H.R. 1211               The “FOIA Act”
      Regulations/Rulings/IRPS                                         Title
                                     Charitable Donation Accounts (Proposed rule with request
    12 CFR Parts 703 and 721         for comment)
                                     Minority Depository Institution Preservation Program
    None (P.L. 111-203, sec. 367(4)) (Proposed IRPS 13-1, with request for comments)
                                     Loan Participations; Purchase, Sale and Pledge of Eligible
                                     Obligations; Purchase of Assets and Assumption of
    12 CFR Parts 701 and 741         Liabilities (Final rule)
                                     Federal Credit Union Ownership of Fixed Assets (Final
    12 CFR Part 701                  rule)
                                     Appraisals for Higher Priced Mortgage Loans
    12 CFR Part 722                  (Supplemental proposal )


                                                     25
Semiannual Report to the Congress                                       April 1 – September 30, 2013


                                       Capital Planning and Stress Testing (Proposed rule with
 12 CFR Part 702                       request for comment)

 12 CFR Parts 741 and 748              Filing Financial and Other Reports (Proposed rule)

 12 CFR Parts 703, 715, and 741 Derivatives (Proposed rule)

 Regulatory Alert 13-RA-08             Appraisals for Higher-Priced Mortgage Loans
                                       CFPB’s New Rule on Real Estate Appraisals and Other
 Regulatory Alert 13-RA-07             Written Valuations Under the ECOA
                                       CFPB’s Amended Remittance Transfer Rule Compliance
 Regulatory Alert 13-RA-06             Deadline: October 28, 2013

 Regulatory Alert 13-RA-05             New Escrow Requirements under the Truth-in-Lending Act
                                       Garnishment of Accounts Containing Federal Benefit
 Regulatory Alert 13-RA-04             Payments
                                       Guidance on Biggert-Waters Flood Insurance Reform Act
 Regulatory Alert 13-RA-03             of 2012

   Letters to Credit Unions                                     Title
                                    Potential Violations of Common Bond Advertising
 NCUA LCU No. 13-FCU-03             Requirements




                                                  26
   Semiannual Report to the Congress                               April 1 – September 30, 2013




                         TABLE I: INSPECTOR GENERAL ISSUED REPORTS
                                    WITH QUESTIONED COSTS
                                                       Number of Questioned Unsupported
                                                        Reports    Costs       Costs

              For which no management decision
        A.    had been made by the start of the
              reporting period.                            0        $0               $0

        B.    Which were issued during the
              reporting period.                            0         0                0


              Subtotals (A + B)                            0         0                0

        C.    For which management decision was
              made during the reporting period.            0         0                0


              (i) Dollar value of disallowed costs         0         0                0

              (ii) Dollar value of costs not allowed
                                                           0         0                0
              For which no management decision
        D.    has been made by the end of the
              reporting period.                            0         0                0
              Reports for which no management
        E.    decision was made within six months
              of issuance.                                 0         0                0

Questioned costs are those costs the OIG has questioned because of alleged violations of
laws, regulations, contracts, or other agreements; findings which at the time of the audit are
not supported by adequate documentation; or the expenditure for the intended purpose is
unnecessary or unreasonable.

Unsupported costs (included in "Questioned Costs") are those costs the OIG has questioned
because of the lack of adequate documentation at the time of the audit.




                                                 27
   Semiannual Report to the Congress                            April 1 – September 30, 2013




                    TABLE II: INSPECTOR GENERAL ISSUED REPORTS WITH
                   RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE
                                                                Number of         Dollar
                                                                 Reports          Value


              For which no management decision had been
         A.
              made by the start of the reporting period.             0              $0


         B.   Which were issued during the reporting period.         0               0



              Subtotals (A + B)                                      0               0


              For which management decision was made
         C.
              during the reporting period.                           0               0


              (i) Dollar value of recommendations agreed to
              by management.                                       N/A              N/A


              (ii) Dollar value of recommendations not agreed
              to by management.                                    N/A              N/A


              For which no management decision was made
         D.
              by the end of the reporting period.                    0               0


              For which no management decision was made
         E.
              within six months of issuance.                         0               0

Recommendations that "Funds to be Put to Better Use" are those OIG recommendations that
funds could be used more efficiently if management took actions to reduce outlays, de-obligate
funds from programs/operations, avoid unnecessary expenditures noted in pre-award reviews
of contracts, or any other specifically identified savings.




                                              28
   Semiannual Report to the Congress                               April 1 – September 30, 2013




                                 TABLE III: SUMMARY OF OIG ACTIVITY
                                  April 1 through September 30, 2013

                                       PART I – AUDIT REPORTS ISSUED
 Report                                                                                       Date
 Number                                            Title                                     Issued

OIG-13-07      NCUA’s Conference Related Activities and Expenses                           5/29/2013

OIG-13-08      Security of the NCUA Data Center                                            8/12/2013

OIG-13-09      Material Loss Review of El Paso’s Federal Credit Union                      8/26/2013



                       PART II – AUDITS IN PROGRESS (as of September 30, 2013)
Independent Evaluation of the NCUA’s Compliance with the Federal Information Security
Management Act (FISMA) 2013

NCUA Financial Statements Audit 2013 (CDRLF, OF, CLF, SIF, TCCUSF)

Material Loss Reviews

Process for Documenting Share Insurance Fund Losses

NCUA’s Credit Union Success Stories




                                                   29
 Semiannual Report to the Congress                                April 1 – September 30, 2013




                             INDEX OF REPORTING REQUIREMENTS

                                                                                             Page
Section                                  Data Required
                                                                                              Ref

4(a)(2)     Review of legislation and regulations                                            25
            Significant problems, abuses, or deficiencies relating to the
            administration of programs and operations disclosed during the
5(a)(1)     reporting period.                                                                14
            Recommendations with respect to significant problems, abuses or
5(a)(3)     deficiencies                                                                     14
            Significant recommendations described in previous semiannual
5(a)(3)     reports on which corrective action has not been completed.                       17
            Summary of matters referred to prosecution authorities and
5(a)(4)     prosecutions which have resulted.                                              None
            Summary of each report to the Board detailing cases where access
5(a)(5)     to all records was not provided or where information was refused.              None

5(a)(6)     List of audit reports issued during the reporting period.                        29

5(a)(7)     Summary of particularly significant reports.                                     14

5(a)(8)     Statistical tables on audit reports with questioned costs.                       27
            Statistical tables on audit reports with recommendations that funds
5(a)(9)     be put to better use.                                                            28
            Summary of each audit report issued before the start of the reporting
            period for which no management decision has been made by the end
5(a)(10)    of the reporting period.                                                       None
            Description and explanation of reasons for any significant revised
5(a)(11)    management decision made during the reporting period.                          None
            Information concerning significant management decisions with which
5(a)(12)    the Inspector General is in disagreement.                                      None
            An appendix containing the results of any peer review conducted by
            another OIG during the reporting period or, if no peer review was
            conducted within that reporting period, a statement identifying the
5(a)(14)    date of the last peer review conducted by another OIG.                           31
            List of outstanding recommendations from any peer review
5(a)(15)    conducted by another OIG that have not been fully implemented.                 None
            A list of any peer reviews conducted by the IG of another OIG during
            the reporting period, including a list of any outstanding
            recommendations made that remain outstanding or have not been
5(a)(16)    fully implemented.                                                               21

                                              30
Semiannual Report to the Congress         April 1 – September 30, 2013




APPENDIX A: SYSTEM REVIEW REPORT (PEER REVIEW OF NCUA OIG)




                                    31
Semiannual Report to the Congress        April 1 – September 30, 2013




                                    32
